No.
IN THE

Supreme Court of the United States
LIBERTY MUTUAL FIRE INSURANCE COMPANY,
Petitioner,
v.
ETHAN VOLUNGIS, ET AL.,
Respondents.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 18th day of August, 2020, I caused three copies of the Petition for a Writ of
Certiorari to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Dennis M. Prince
Kevin T. Strong
PRINCE LAW GROUP
10801 West Charleston Boulevard
Suite 560
Las Vegas, NV 89135
(702) 534-7600
dprince@thedplg.com
kstrong@thedplg.com
Counsel for Respondents

___________________________
Gregory J. Kerwin

